Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




       HIPAA READINESS:
  ADMINISTRATIVE SIMPLIFICATION
   FOR M EDICAID STATE AGENCIES




                   JANET REHNQUIST
                     Inspector General

                      March 2003
                    OEI-09-02-00420
                Office of Inspector General

                                   http://oig.hhs.gov
The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the department, the
Congress, and the public. The findings and recommendations contained in the inspections
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs.

Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of OI lead to criminal convictions,
administrative sanctions, or civil monetary penalties. The OI also oversees state Medicaid fraud
control units, which investigate and prosecute fraud and patient abuse in the Medicaid program.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG's internal operations. The OCIG imposes program exclusions and civil monetary
penalties on health care providers and litigates those actions within the department. The OCIG
also represents OIG in the global settlement of cases arising under the Civil False Claims Act,
develops and monitors corporate integrity agreements, develops model compliance plans,
renders advisory opinions on OIG sanctions to the health care community, and issues fraud
alerts and other industry guidance.
                          EXECUTIVE                        SUMMARY

OBJECTIVE

          To determine if state Medicaid agencies expect to comply with the electronic data transaction
          standards and code sets under the Health Insurance Portability and Accountability Act
          (HIPAA) by October 2003.



BACKGROUND

          The purpose of Title II of HIPAA is to improve the efficiency of the health care system by
          establishing standards to facilitate the electronic transmission of data between providers and
          payers. Electronic data interchange (EDI) can eliminate the inefficiencies associated with
          handling paper documents. It can reduce administrative costs and improves overall data quality
          for transactions, such as health care payments and coordination of benefits.1

          In accordance with the provisions of Title II of HIPAA, the Secretary of Health and Human
          Services has promulgated regulations mandating the use of specific standards for eight different
          types of electronic transactions and medical code sets. According to the regulations, state
          Medicaid agencies and other covered entities that filed an extension must implement the
          standards by October 16, 2003.



FINDINGS

          We conducted telephone interviews with officials from the 51 state Medicaid agencies (50
          states and the District of Columbia). While few similarities exist in the planning and strategies
          among the 51 Medicaid agencies, 42 programs (approximately 80 percent) anticipate that they
          will be in compliance by October 2003. Of the remaining nine programs, eight are developing
          contingency plans to allow them to conduct business with compliant and noncompliant trading
          partners, and the ninth is expected to be minimally compliant by the deadline, with expectations
          that a new compliant system will be on line by March 2004.




          1
           65 F.R. 50312 (August 17, 2000).



HIPAA Readiness: Administrative Simplification             1                                 OEI-09-02-00420
Approximately 80 percent of the state Medicaid programs will be in compliance
with the HIPAA standards by October 2003

          Forty-two state Medicaid agencies expect to be fully compliant by October 16, 2003. Nine
          states will not meet the October 2003, target. The nine states are developing strategies that
          they expect will enable them to continue paying claims. Furthermore, twenty-nine of the 51
          states currently have contingency plans in the event they are unable to implement the transaction
          standards by October 16, 2003.

Few similarities exist in the planning and strategies among the 51 state Medicaid
programs

          Twenty-nine states will use an electronic data interchange translator to handle the new
          electronic standards. In addition to these 29, 15 states have new systems or plan to install new
          systems over the next several years, and 7 states will use a clearinghouse or other interim
          measures to meet the implementation date. Respondents from 40 states indicated that they plan
          to sequence implementation of the transactions.

Lack of financial resources and technical support are barriers to meeting the
October 2003 compliance date

          Twenty-one states report that lack of financial resources and of technical support are 

          barriers. In addition, 21 state officials cited regulatory delays, changing federal regulations, and

          inconsistent rule interpretations as barriers. Moving low volume and rural providers to

          compliance is perceived as a barrier in 21 states. In 24 states, code set conversion is a major

          barrier to compliance. 




CONCLUSION

          Overall, states are making progress in meeting the October 2003, deadline for implementing the
          HIPAA electronic transaction standards and code sets. All 51 states expect to be ready to
          implement the transactions, which will enable them to pay claims for Medicaid beneficiaries.
          The nine states that anticipate not being fully compliant on October 16, 2003, expect to
          continue to transact business using compliant and noncompliant electronic data until their
          systems are ready.




HIPAA Readiness: Administrative Simplification               2                                 OEI-09-02-00420
                            TABLE                        OF             CONTENTS
                                                                                                                                   PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


Approximately 80 percent will be in compliance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


Planning and strategies vary among Medicaid agencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


Barriers to compliance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


APPENDIX: HIPAA Electronic Transaction Standards Glossary . . . . . . . . . . . . . . . . . . . . . . . . 11


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13





HIPAA Readiness: Administrative Simplification                               3                                           OEI-09-02-00420
                                       INTRODUCTION

OBJECTIVE

          To determine if state Medicaid agencies expect to comply with the electronic data transaction
          standards and code sets under the Health Insurance Portability and Accountability Act
          (HIPAA) by October 2003.



BACKGROUND

          Congress instituted significant reforms to the health care industry with the passage of HIPAA.
          Title I of HIPAA ensures the availability and portability of health care insurance coverage, while
          Title II creates a regulatory framework focused on improving the efficiency of the health care
          system by establishing standards to facilitate the electronic transmission of data between
          providers and payers. The goal is to create a seamless transfer of data with limited manual
          intervention.

Administrative Simplification

          Under Title II, Subtitle F (Administrative Simplification), the Secretary of Health and Human
          Services has the authority to: (1) mandate the use of standards for the electronic exchange of
          health care data; (2) specify what medical and administrative code sets should be used, (3)
          require the use of national identification systems, and (4) specify the types of measures required
          to protect the security and privacy of personally identified health care information.

Electronic Transactions and Code Sets

          Electronic data interchange (EDI) is the electronic transfer of information in a standard format
          between trading partners. The EDI substantially reduces the handling and processing time
          compared to paper transactions. The EDI can eliminate the inefficiencies of handling paper
          documents by reducing the administrative burden, lowering operating costs, and improving
          overall data quality.2

          Transactions are the exchange of information between two parties to carry out financial or
          administrative activities related to health care. The standards for electronic transmission


          2
           65 F.R. 50312 (August 17, 2000).



HIPAA Readiness: Administrative Simplification              4                                OEI-09-02-00420
          of each of the transactions are codified in the Code of Federal Regulations (45 CFR Parts 160
          and 162). The rule provides standards for eight types of electronic transactions:

          <         health care claims or equivalent encounter information, 

          <         health care payments and remittance advice, 

          <         coordination of benefits, 

          <         health care claim status, 

          <         enrollment and disenrollment in a health plan, 

          <         eligibility for a health plan, 

          <         health plan premium payments, and 

          <         referral certification and authorization.


          The rule also contains requirements concerning the use of standardized code sets, such as

          tables of terms, medical concepts, medical diagnostic codes, or medical procedure codes used

          to encode data elements in the transaction. The code set includes the codes and the descriptors

          of the codes.3 The following code sets have been adopted:


          <	        International Classification of Diseases-9-Clinical Modifications (ICD-9-CM), volumes
                    1, 2, and 3,
          <	        Combination of Health Care Financing Administration Common Procedure Coding
                    System (HCPCS) and Current Procedural Terminology-4 (CPT- 4), for physicians and
                    other health services,
          <         HCPCS for all other items,

          <         National Drug Codes (NDC) or HCPCS for prescription drugs, and

          <         Common Treatment for Dentists-2 (CTD-2) for dental services.


          Covered entities, defined as providers, clearinghouses, and health plans that use the electronic

          exchange of health information as part of their business, will be required to adopt these

          standards. State Medicaid agencies are defined as health plans under Title II. The compliance

          date for this rule (45 CFR Parts 160 and 162) was originally October 16, 2002. The

          Administrative Simplification Compliance Act, signed into law on December 27, 2001, extends

          the compliance date by one year to October 16, 2003. The extension applies only to those

          covered entities that filed an extension with the Centers for Medicare & Medicaid Services

          (CMS) by October 16, 2002. According to CMS officials, states have all filed extensions. 

          Therefore, October 2003, is the effective compliance date for state Medicaid agencies. 

          Because the implementation date is several months away, standards have not yet been

          developed to measure compliance.





          3
           45 CFR §160.1002



HIPAA Readiness: Administrative Simplification               5                              OEI-09-02-00420
METHODOLOGY

          This is one of several inspections that the OIG is conducting to determine the expected level of
          readiness for compliance by October 2003. After receiving input from CMS officials in the
          Centers for Medicaid and State Operations (CMSO), we developed a standardized telephone
          questionnaire to gather information from the Medicaid program officials responsible for
          implementing HIPAA electronic transactions and code sets.

          We conducted telephone surveys of the 51 Medicaid agency directors, HIPAA coordinators,
          and/or their staff between October 1 and October 31, 2002. The 51 states included the 50
          states and the District of Columbia.

          We questioned the HIPAA officials about the level of readiness, as of October 2002, in four
          broad areas:

          T         assessment and awareness activities, for example, which programs and functions are
                    being affected by the regulations;
          T         barriers that have impeded or are current obstacles to achieving compliance,
          T         compliance strategies, such as sequencing and testing plans that are being used for
                    implementation in the Medicaid program; and
          T         contingency planning.

          The inspection was conducted in accordance with the Quality Standards for Inspections
          issued by the President’s Council on Integrity and Efficiency.




HIPAA Readiness: Administrative Simplification              6                               OEI-09-02-00420
                                                 FINDINGS

          We conducted telephone interviews with officials from the 51 state Medicaid agencies (50
          states and the District of Columbia). While few similarities exist in the planning and strategies
          among the 51 Medicaid agencies, 42 programs (approximately 80 percent) anticipate that they
          will be in compliance by October 2003. Of the remaining nine programs, eight are developing
          contingency plans to allow them to conduct business with compliant and noncompliant trading
          partners,4 and the ninth expects to be minimally compliant by the deadline, with expectations
          that a new compliant system will be on line by March 2004.



Approximately 80 percent of the state Medicaid agencies
reported they will be in compliance with the HIPAA standards
by October 2003

          Forty-two of 51 state Medicaid agencies reported that they will be fully compliant with the new
          electronic transaction standards, while nine reported that they probably will not be compliant by
          October 2003. Thirty-six of the 42 believe that they have adequate financial and technical
          resources to implement the standards. The remaining six states expect some funding cuts or
          budget and staff adjustments in their HIPAA plan.

          Six of the nine potentially noncompliant states expect to have enough technical and financial
          resources to become compliant at a later date. However, three of the noncompliant states
          indicate that they need additional technical staff and financial resources to become compliant.

         Twenty-nine of the 51 states reported that they have developed specific contingency plans to
         continue services if their systems are not fully compatible with their trading partners, as of
         October 16, 2003. This includes eight of the nine states expected to be noncompliant, whose
         contingency plans will allow them to handle critical compliant and noncompliant transactions,
         such as paying provider claims. The remaining 22 states have no formal specific contingency
         plan.




          4
          Trading partners are external entities, such as managed care organizations, physicians, dentists, home-
maker services, nursing homes, and other Medicaid providers with whom the state agency does business.



HIPAA Readiness: Administrative Simplification                         7                                       OEI-09-02-00420
Planning and strategies vary widely among the 51 state
Medicaid agencies

State Medicaid program staff adopt compliance strategies and sequencing plans
to meet their specific program needs

          The 51 states have electronic data interchange (EDI) systems that range from 30-years-old to
          new systems that currently are being installed. The HIPAA teams in each state conducted gap
          analyses to determine what changes in their current EDI systems would be most appropriate to
          implement the new transaction standards. Twenty-nine states will use their existing EDI
          software along with an EDI translator to handle the new standard transactions. Fifteen states
          have new EDI systems or plan to install new systems during the next several years. Seven
          states are using clearinghouses or making minimal modifications in their current EDI systems to
          meet the new standards, anticipating major system and regulatory changes beyond 2003.

          More than 75 percent (40) of the states are using a sequencing strategy, which is the process
          for logically implementing each of the eight transactions according to state specific needs.
          Fifteen of these states are prioritizing transactions related to provider payments. The remaining
          25 states have developed sequencing plans, based on system design, ease of making the
          electronic conversion, or volume of business in each transaction. Eleven states have no
          sequencing strategy.

          Eight of the nine potentially noncompliant state agencies have planned major systems’
          renovations which include using translators and clearinghouses and/or replacing hardware and
          software. Only one of the noncompliant states plans a “bare bones” or minimal approach to
          compliance in 2003, anticipating a new compliant system in 2004. All nine of the states
          anticipate that they will be compliant in 2004.

States have begun testing transaction standards

          As of November 2002, five states have implemented at least one of the eight new transaction
          standards and have begun testing with their trading partners. Thirty-nine states have or are in
          the process of completing the development of their testing plans. Additionally, 36 states
          anticipate conducting systems’ testing with their Medicare partners by April 2003. Although it
          was not one of the eight listed transactions, an additional four states are implementing the
          National Council for Prescription Drug Programs standard (NCPDP 5.1) for high volume drug
          dispenser transactions, which are specified under the HIPAA transaction standard for health
          care claims or equivalent encounters.




HIPAA Readiness: Administrative Simplification             8                                 OEI-09-02-00420
Lack of financial resources and technical support are barriers
to meeting the compliance deadline

State Medicaid officials identified challenges with code set conversions, state
funding, on-going standards’ modifications, and provider concerns as barriers to
compliance

          For 24 states (3 of which expected to be noncompliant), the local code conversion effort is a
          major barrier to compliance. States have as few as 75 to more than 10,000 local codes to
          convert, crosswalk, delete, or refine. The conversion is particularly difficult because many state
          codes that are used for Medicaid services are beyond the scope of traditional medical services.
          For example, no code existed in the HCPCS or CPT-4 codes for homemaker services. Also,
          state officials expressed concerns over the long delays in getting timely responses for new code
          designations. The delays affect implementation costs, schedules, and their ability to integrate
          the new codes into their systems in a timely manner.

          In 21 states, implementation plans may have to be altered during the next 12 months, due to
          budget cuts and state deficits. This includes six of the nine potentially noncompliant states
          where implementation costs and state budget problems are barriers to meeting the October
          2003, target.

          In 21 states, including four of the expected noncompliant state programs, officials said the
          federal regulatory environment is a barrier to compliance. They cited regulation delays, rule
          changes, and modifications to the standards that continued during planning, and the lack of
          consistent rule interpretations from staff among the regional CMS offices as causes for delays in
          planning system conversions. They believe these barriers have added to the cost of
          implementation.

          Small and/or rural providers create some unique challenges for state Medicaid program
          compliance. In 18 states, smaller providers may revert to paper claims rather than incur the
          expense of converting to the HIPAA electronic transaction standards. Small states are having
          difficulty reaching rural providers in remote communities to inform them of the HIPAA
          transaction standards. Also, most providers were aware of the HIPAA “privacy regulation,”
          but not the transaction standards.




HIPAA Readiness: Administrative Simplification              9                                OEI-09-02-00420
                                           CONCLUSION

          Overall, states are making progress in meeting the October 2003, deadline for implementing the
          HIPAA electronic transaction standards and code sets. All 51 states expect to be ready to
          implement the transactions, which will enable them to pay claims for Medicaid beneficiaries.
          The nine states that anticipate not being fully compliant on October 16, 2003, will continue to
          transact business using compliant and noncompliant electronic data until their systems are ready.

          We will provide additional technical information, as appropriate, to CMS.




HIPAA Readiness: Administrative Simplification             10                                OEI-09-02-00420
                                                                               Appendix



            Glossary of Electronic Transaction Standards Terminology

Administrative Simplification: the use of mandated standards for the electronic exchange of health
care data and specific measures to protect the security and privacy of personally identifiable health care
information.

Business Associate: a person or organization that performs certain business functions on behalf of a
covered entity.

Clearinghouse: an entity that processes information received from one entity in a nonstandard format
into a standard transaction, or receives a standard transaction and converts it to a nonstandard format
for a receiving entity.

Code Set: the tables of terms, medical concepts, diagnostic codes, or procedure codes and
descriptions used to encode information in a transaction.

Contingency Plan: a plan developed by covered entities to provide an alternative for submitting or
receiving HIPAA electronic transactions after October 2003, in the event that the covered entity’s
system conversion fails or is incomplete.

Covered Entity: any health plan, health care clearinghouse, or a health care provider who transmits
any health information in electronic form in connection with a transaction covered by the HIPAA
standards.

EDI Translator: a software tool for accepting an EDI transmission and converting the data into
another format, or for converting a non-EDI file into an EDI format for transmission.

Electronic Data Interchange (EDI): any electronic exchange of formatted data.

Gap Analysis: an evaluation of a covered entity’s system to define the changes to be made, how the
data will be managed, and what procedures will be implemented to enter and to verify information.

Local Codes: a generic term for code values that are defined for a state or other political subdivision
or specific payer.

State Medicaid Agency: the state agency responsible for overseeing the state’s Medicaid program,
defined as a covered entity under HIPAA.

Small Health Plan: under HIPAA, a health plan with annual receipts of $5 million or less.

HIPAA Readiness: Administrative Simplification            11                                OEI-09-02-00420
Sequencing: a process plan developed by a covered entity to implement each of the transaction
standards in a logical sequence.

Standard Transactions: the exchange of information between two parties that complies with the
requirements established under HIPAA.

Trading Partner: an external entity, such as a customer, with whom the covered entity does business.
A trading partner can be so designated for some purposes and considered a business associate for
other purposes.

Translator: See EDI translator.

Vendor: software and/or hardware entities that provide HIPAA compliant services, consulting, and/or
products to covered entities. Vendors may be business associates or trading partners.




HIPAA Readiness: Administrative Simplification        12                               OEI-09-02-00420
                             ACKNOWLEDGMENTS


          This report was prepared under the direction of Paul A. Gottlober, Regional Inspector General
          for Evaluation and Inspections, and Deborah Harvey, Assistant Regional Inspector General for
          Evaluation and Inspections in San Francisco. Other principal Office of Evaluation and
          Inspections staff who contributed include:

          Timothy Brady, Project Leader
                       Linda Frisch, Program Specialist
          Silvia Chin, Program Analyst
                        Stephanie London, Program Specialist
          Rob Gibbons, Program Analyst

          Cindy Lemesh, Program Analyst

          Thomas A. Purvis, Program Analyst

          Cheryl Dotts, Program Assistant





                               For information or copies of this report, please contact

                                         the Office of Inspector General’s

                                      Public Affairs office at (202) 619-1343.


                Reports are also available on the World Wide Web at our home page address:

                                           http://www.oig.hhs.gov/




HIPAA Readiness: Administrative Simplification                 13                            OEI-09-02-00420
